                        National Archives and Records Administration
                                                                                                   8601 Adelphi Road
                                                                                  College Park, Maryland 20740-6001


Date 	      January 13,2009
Reply to
Attn of 	   Office ofInspector General (OIG)

Subject 	   Advisory Report No. 09-06, OIG Monitoring of the Executive Office of the President
            System

To 	        Adrienne Thomas, Acting Archivist of the United States (N)

            The purpose ofthis report is to advise you ofthe current status ofthe Executive Office ofthe
            President (EOP) System, part of the Electronic Records Archive (ERA)!. This report
            addresses sensitive but unclassified electronic data to be transferred to the National Archives
            and Records Administration (NARA) from the George W. Bush Administration and is
            limited in scope to the priority systems identified in NARA's Contingency Plan for Bush
            Presidential Electronic Records (see Supplemental Information for additional details).
            Additional data from other systems will also be transferred to NARA. A separate report will
            be issued addressing the Bush Administration's classified electronic records.

            We continue in our on-going effort to review NARA's development and implementation of
            the ERA System. This initiative focuses on assessing the current status of the ERA program
            and determining whether the program (a) is meeting cost and schedule requirements, and (b)
            will be able to cost-effectively meet future target implementation dates.

            Our review of the EOP System development effort revealed that due to the expected volume
            of electronic records from the Bush Administration, and the possibility of receiving these
            records in unknown or incompatible formats, NARA will not be able to rely solely on the
            EOP System to comply with the Presidential Records Act, and will incur additional costs.

            The ERA is a major information system that is intended to preserve and provide access to
            massive volumes of all types and formats of electronic records, including presidential
            records, independent oftheir original hardware or software. Due to the system's complexity,
            NARA awarded a contract to the Lockheed Martin Corporation to develop the ERA in
            phases, or increments, at an estimated cost of $453 million. In response to schedule delays,
            NARA and Lockheed Martin agreed to a revised schedule and strategy consisting of a two­
            pronged development approach.

            Development of the original system, now referred to as the ERA "Base" System was to
            continue, while parallel development would be conducted for a separate system dedicated
            initially to receiving sensitive but unclassified electronic records from the outgoing Bush
            Administration in January 2009. This system, known as the EOP System, uses a different
            architecture than the ERA Base system. It is being built on a commercial product that is to

1   The portion of ERA that will handle electronic records from the Executive Office of the President.




                                           NARA's web site is http://www.archives.gov
provide the basic requirements for processing presidential electronic records, such as rapid
ingestion of records, and the ability to search content. The estimated development cost of the
EOP System is $38.9 million.

The main archival storage component for the EOP is the Hitachi Data Systems (HDS)
Content Archive Platform (HCAP) which is managed by NARA and the vendor. During
testing of the ingest function, the HCAP experienced stability problems that resulted in
significant slowdowns in the system's ability to ingest records. Hitachi issued software
patches that appear to have corrected the stability problems in the test environment.
However, there are two performance requirements that may not be met relating to the amount
of time to perform ingest and search functions. Results from laboratory tests of these
functions in October 2008 indicate they fall short of the performance requirements. Hitachi,
which has a test lab in California that simulates the NARA environment, is working on
reducing the response times. At this time, it is unknown how the system will respond in a
production environment to the full volume of White House electronic records.

Due to the expected volume of electronic records from the Bush Administration and the
possibility of receiving these records in unknown or incompatible formats, we are concerned
that (a) the EOP will not solely enable the agency to fully comply with the Presidential
Records Act, and (b) NARA will incur increased costs from maintaining additional systems,
getting the data ingested, and putting the data in a format that is searchable in the EOP.

On December 5, 2008, NARA took delivery of the first batch of data from three White House
systems. Data from one system is currently being ingested into the EOP. The software
needed to ingest data from the remaining two systems is expected to be available on January
15,2009. The balance of the White House's electronic records is planned to be delivered in
two more batches, and ingestion of the highest-priority data is expected to be completed in
May 2009. The contractor has additional software drops planned for January and March
2009, to accommodate additional data types beyond those addressed at Initial Operating
Capability (lOC).

While the EOP System achieved IOC on December 5, 2008, this does not mean the system
currently has the capability to ingest, search, and access all electronic records from the White
House. This conclusion is supported by the fact that the Contingency Plan for Bush
Presidential Electronic Records has been invoked for two proprietary systems - the Records
Management System (RMS) and the White House Photo System (PHOTO). The RMS uses a
customized older version of Do cumentum while PHOTO, which is the largest system, uses
proprietary photo management software called MerlinOne. Essentially, NARA will inherit
these systems (both hardware and software) from the White House on January 20,2009, and
they will continue to be housed in their present location. NARA will have to establish
contracts with the software providers for these systems. It is estimated it will take several
months for the records in RMS and PHOTO to be ingested into the EOP and for the records
to be searchable.

The Presidential Records Act gives the Archivist of the United States responsibility for the
custody, control, and preservation ofpresidential records upon the conclusion of a




                         NARA's web site is http://www.archives.gov
           President's tenn of office. The Act states that the Archivist has an affinnative duty to make
           such records available to the public as rapidly and completely as possible consistent with the
           provisions of the Act. NARA will immediately need to be able to respond to time-sensitive
           and often high-visibility special access requests for these records. Such special access
           requests come from fonner and incumbent Presidents, the Courts, and the Congress.

           At the time of the last presidential transition, NARA met these requirements by recreating the
           Clinton Administration's computer systems (software and hardware) that originally held the
           records and developing simple search interfaces, so that NARA personnel could search for
           requested infonnation. It took about 400 days to process the two terabytes2 of data received
           from the Clinton Administration. It is estimated the Bush Administration's electronic
           records will be about 100 terabytes. Any records that cannot be ingested in a way that
           supports search and retrieval immediately after the change in administration will affect the
           time and cost for NARA to comply with the Presidential Records Act.

           Our review effort consisted primarily of reviewing applicable ERAlEOP documentation such
           as: the ERA development contract and modifications; contractor status reports;
           Congressional status reports; the Contingency Plan for Bush Presidential Electronic Records;
           ERA's Exhibit 300, Capital Asset Plan and Business Case Summary for ERA3 ;
           Congressional Budget Justifications; and interviews with responsible ERA Program Office
           and Presidential library officials. We conducted this perfonnance audit in accordance with
           generally accepted government aUditing standards. Those standards require that we plan and
           perfonn the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
           our findings and conclusions based on our audit objectives. We believe that the evidence
           obtained provides a reasonable basis for our findings and conclusions based on our audit
           objectives.

           If you have any questions concerning the infonnation presented in this Advisory Report,
           please e-mail Mr. James Springs or me, or call us at extension 73000.




           Inspector General


           cc: NH (M. Morphy)




2   A terabyte is about 1 trillion bytes or about 1,000 gigabytes. 

3   Agencies develop an Exhibit 300 to justify each request for a major information technology investment. 





                                        NARA 's web site is http://www.archives.gov
                               SUPPLEMENTAL INFORMATION 


Contingency Plan for Bush Presidential Electronic Records

The Contingency Plan for Bush Presidential Electronic Records states there are several risks
associated with the transfer of the Bush records into the ERA System. The first is that the ERA is a
new system and there are Information technology components that are being developed specifically
for Presidential records. Secondly, because records are being created by the White House staff until
the end of the administration, there is always uncertainty regarding an exact volume of data that
NARA will receive from the White House. While NARA has experience through the last three
Presidential administrations accepting and making available these records, this transition presents
unique challenges because the agency is faced with about 50 times the volume of electronic
materials and formats not previously dealt with. Lastly, although NARA has been working closely
with the White House to understand the types of data that will be transferred, there is always a
possibility that some electronic records may be overlooked, and NARA officials will have to do
some analysis after January 20,2009, to prepare the records for transfer into the EOP.

NARA's contingency plan prioritizes non-classified systems from the White House based on the
Office of Presidential Libraries (NL) experience with records of previous administrations. The
highest-priority systems were identified that represent the first set of Bush Administration electronic
records that need to be available for search and access. These systems include:

• 	 Records Management System (RMS)-provides the key index to the bulk of Presidential textual
    records.
• 	 White House Photo System (PHOTO)-contains all the Presidential photographs (in three
    different formats/resolution) taken during the George W. Bush Administration and all ofthe
    metadata regarding the photographs.
• 	 Presidential Diary System-contains a daily record ofthe President's activities such as travel,
    meetings, and phone calls.
• 	 WARDS-a search and access database that includes data from the Worker and Visitor Entry
    System (WAVES) and Access Control System (ACS). These systems control and record access
    to the White House complex.
• 	 Automated Records Management System (ARMS)-electronic mail 2001-2003.
• 	 MS Exchange-electronic mail 2003-present.




                                 NARA's web site is http://www.archives,gov
